'

Vi

A
Supreme Court, U.S.
FILED

JUL 2 3 2020
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Tammv Horton. Pro Se
(Your Name)

— PETITIONER

vs.
Methodist University

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Fourth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Tammy Horton
(Your Name)
3170 Bethel Baptist Road
(Address)
Spring Lake, NC 28390
(City, State, Zip Code)
910-850-5135
(Phone Number)

RECEIVED
JUL 2 9 2020
■SUPREEM°FCTOnRTLn^K

QUESTION(S) PRESENTED
1.

Whether the United States District and Court of Appeals for the Fourth Circuit are obligated to

confirm an institution of higher learning, subject to Title III, Section 504, Rehab Act, has effectively
complied with rules and regulations stipulating the provision and implementation of accommodations for
individuals with disabilities prior to affording that institution academic deference, to prevent violation of
Federal and United States Constitutional rights guaranteeing all persons, to include individuals with
disabilities, the right to liberty and pursuit of happiness, as well as substantive due process and equal
protection under the law as articulated in 1st, 5th , 14th Amendments?

LIST OF PARTIES

X All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
1. Kisor v. Wilkie, 139 S. Ct. 2400 (2019)
2. Halpem v. Wake Forest Univ. Health Sciences, 669 F.3d 454 (4th Cir.
2012)
3. Neal v. Univ. of N.C., No. 5:17-CV-00186-BR (E.D.N.C. May. 1,
2018)
4. Class v. Towson Univ., 806 F.3d 236 (4th Cir. 2015)
5. Alexander v. Choate (469 U.S. 287 (1985)
6. Regents of the Univ. of Mich. v. Ewing, 474 U.S. 214, 217-19 (1985)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

United States Court of Appeals for the Fourth Circuit. Order denying the
petition for rehearing and rehearing en banc.

APPENDIX B

United States Court of Appeals for the Fourth Circuit. Appellant’s Petition for
Rehearing and Rehearing En Banc.

APPENDIX C

United States Court of Appeals for the Fourth Circuit. Unpublished per
curiam opinion.

APPENDIX D

United States Court of Appeals for the Fourth Circuit. Opening Brief for
Appellant.

APPENDIX E

United States District Court, Eastern District of North Carolina, Western
Division. Order granting Summary Judgment to Defendant.

APPENDIX F

United States District Court, Eastern District of North Carolina, Western
Division. Complaint filed in Horton v. Methodist University.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix C
the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
X is unpublished.
The opinion of the United States district court appears at AppendixJE
the petition and is
[ ] reported at
j or,
[ ] has been designated for publication but is not yet reported; or,
X is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at.
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the__
court
appears at Appendix.
to the petition and is
[ ] reported at_____
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

X For cases from federal courts
The date on which the United States Court of Appeals decided my case
was December 20. 2019_____ .
[ ] No petition for rehearing was timely filed in my case.
X A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: January 30. 2020
and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
.(date)
in Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
.(date) on
(date) in
Application No.___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitutional Amendment I, V, and XIV Section I
Americans with Disabilities Act, Section 504 of the Rehabilitation Act of 1973. as amended 29
U.S.C. § 794
Title III
49 CFR Parts 27, 36, 37, 38, Title 34, Part 104 of the Code of Federal Regulations
42 U S.C. §§ 12132
#

34 CFR Part 104
28 CFR Part 36, 39

STATEMENT OF THE CASE
In 2015, as a graduate student in Methodist University’s Physician Assistant Program (MUPAP),
Tammy Horton (Horton), notified MUPAP administration of her medical disabilities and desire to be
permitted testing accommodations1. In March 2015, Horton followed University policy by contacting the
Disability Services Director and formally requesting testing accommodations, to include providing relevant
medical documentation of her disabilities. It remains unrefuted that Horton was approved for testing
accommodations of increased testing time and a reduced distraction environment. Horton was a student in
good standing with no academic or disciplinary infractions.
In October 2015, Horton was scheduled for a final examination2 for which MUPAP provided no
testing accommodations, for additional time or reduced distraction environment. Three days later,
MUPAP administration informed Horton that she had failed the examination, as such: she failed the
course. At that time, Horton was verbally notified of her dismissal from the program. MUPAP
administration justified Horton’s dismissal noting the action was required by program policy, which only
permitted remediation of 2 courses during the Didactic Phase of the program0. The upcoming semester
would begin the Clinical Phase of the program which would have allowed for remediation of 2 additional
courses without penalty.
Horton filed a formal grievance and appeal of her academic dismissal with the University’s
Disability Services Director to resolve the matter without interrupting her Clinical Rotation scheduled to
begin the following month, in November 2015. After meeting with MUPAP administration and
investigation by the director of Disability Services Office (DSO), The University and MUPAP were
notified by the director that Horton had not been provided any testing accommodations for the failed exam

1 Testing accommodations were not requested for and did not.include hands-on. laboratory, or clinical examinations.
1 This examination scheduled was Orthopedics Final Examination on October 12,2015. Note, the “final exam” for this course was the only
exam, therefore; failure of this exam was equivalent to failure of the course.
* Prior to Horton’s request and approval for testing accommodations, she had successfully remediated 2 courses during the Didactic Phase of
the program.

and recommended that Horton be permitted to take the exam4 again with testing accommodations in order
for the University to remain in compliance with federal disability laws. MUPAP denied Horton the
opportunity to take the examination with testing accommodations.
Over the course of a year, Horton attempted to resolve the issue with the University through legal
mediation, to no avail. In December 2016, Horton filed a Complaint in United States District Court5. The
University filed a Motion for Summary Judgment which was granted January 23, 2019. Horton filed a
timely notice of appeal to the Un ited States Court of Appeals for the Fourth Circuit (COA) on February 14,
20196. On December 20, 2019, the COA affirmed the lower court’s ruling by unpublished per curiam
opinion. Horton submitted a timely Petition for Rehearing and Rehearing En Banc (Petition) on January
30, 2020. Horton’s Petition was denied by COA on February 24,2020.

4 Horton did not specifically request to retake the exam already given but agreed it would be acceptable for her to be given an alternate exam
based on the same course material/bioek of instruction.
3 United States District Court, Eastern District of North Carolina. Western Division: Case No. 5:I6-CV-945-D.
6 COA Case No. 19-1174

REASONS FOR GRANTING THE PETITION
The significance of the American with Disabilities Act (Act) (i.e. Title III), 42 U.S.C. §§ 121.31 12234, and § 504 of the Rehabilitation Act of 1973,29 U.S.C. § 794 is of immense national importance
as it was enacted with the intention of eliminating rampant disability based discrimination that
permeated our society. The legislation demonstrated the nation’s commitment to ensure the equality of
opportunity, participation, independent living, and economic self-sufficiency of those with disabilities
by providing comprehensive mandates intended to eliminate discrimination. Since that time the
Courts’ interpretation and enforcement, or lack there-of, has greatly diminished the effectiveness of the
protections conveyed to those with disabilities by and through this legislation. Without the Courts’
vigorous oversight, strict adherence to the law, as written, and Court precedence these protections
cannot and will not stand.
The question Horton presents for this Court’s review is relatively narrow in focus but cumulative in
effect. The fundamental question to be answered in Horton’s case is whether or not she was provided
testing accommodations by the University for the final examination on October 12, 2015. Issue arises
when the District Court relies on the doctrine of academic deference intended to grant educati onal
institutions extensive latitude when making purely academic decisions. On its face, this exercise of the
Court’s discretion is quite plausible as the idea of academic deference rests on the Court’s
acknowledgment of their lack of expertise in the ‘world of academia’ when compared to educators. As
a result, there are several precedential court cases based upon this premise, to include Halpem v. Wake
Forest Univ. Health Sciences, 669 F.3d 454 (4th Cir. 2012); Neal v. Univ. of N.C., No. 5:17-CV00186-BR (E.D.N.C. May. 1,2018); Class v. Towson Univ., 806 F.3d 236 (4th Cir. 2015); and Kisor
v. Wilkie, 139 S. Ct. 2400 (2019).

The District Court cited Halpern and Neal as representative cases in the Order granting Summary
Judgment to the University in Horton’s case to substantiate their yielding of academic deference. (DE
86-10), while the COA cited Class v. Towson Univ., 806 F.3d 236 (4th Cir. 2015). The Courts cited
cases containing allegations of disability discrimination at institutions of higher learning which were
similar in nature to Horton’s case, but the similarities end there. All three cases cited details of
overwhelming effort on behalf of the educational i nstitutions in, not only providing disabil ity
accommodations, but actively participating in the interactive process to determine if the possibility of
alternative accommodations for the students. Ultimately, in each case, no degree of accommodations
were determined to be available to counter the unprofessional behavior and poor academic
performance by Halpern, ameliorate the intensity of Neal’s psychological and behavioral issues, or
reduce the risk of death for Class while he participated in football.
In stark contrast to the previously mentioned cases, Horton’s case was based solely upon disability
discrimination due to MUPAP’s denial of testing accommodations for Horton’s final exam. (DE 1 at
2). While the University would have the Courts believe Horton was dismissed due to “poor academic
performance” (DE 102-4); (DE 86-9), Court Record (Record) contains deposition testimony of
University and MUPAP administration confirming Horton to be in good academic standing prior to the
final exam on October 12,2015 (DE 41-3 at 81:16-17; 109:13, 16; 82:23-25; 83:1-3), was approved for
testing accommodations (DE 39-6); (DE 41 -6 at 43:16-19) which were not provided to Horton for the
exam in question (DE 41-1 at 47:18-22)); (DE 41-2 at 69:16-25; 70:1-71:13; 83:25-84:12); (DE 41-7
at 26:14, 31:1-5, 68:6-19,69:13-20); (DE41-6 at 34:11-17; 91:21-93:3; 93:1-18).

In the Courts rush to abdicate their judicial responsibilities by affording academic deference, to the
very institution whose actions were in question, was nothing short of dereliction of duty. Had the
Courts assessed the case on its merits while following the rule of law as it is written, it would have
been clear that Horton’s case was not of an academic nature, but solely of disability discrimination.
Without the Court’s unencumbered discretion, it made it possible for the University to exploit the
deference allowed and create their own narrative of Horton’s “poor academic performance” requiring
them to provide no admissible evidence at all.
It is the duty of the Courts to ensure appropriate application and interpretation of the law for which
they are best suited. All too often the Courts’ abdication of their responsibility when deferring their
legal judgment to another agency’s interpretation results in violation of the Constitutional and Civil
Rights of those it is meant to protect as in Kisor v. Wilkie, 139 S. Ct. 2400 (2019). Horton’s case is a
prime example of the harm inflicted upon an individual with disabilities and can expect to endure as
long as Courts continue to reflexively defer to educational institutions without discerning the true
nature of a case whether purely academic or genuinely discriminatory. The Disability Laws7 are clear
regarding the obligation of educational institutions to not only provide, but “ensure” meaningful
accommodations are available to individuals with disabilities before determining whether a student is
deemed “otherwise qualified”. In Horton’s case, had the Courts performed their due diligence in
reviewing the Record, it would have been obvious that academic deference was not due the University.
The only way to know whether Horton was “otherwise qualified” to remain in MUPAP would have
been providing testing accommodations for the Ortho Final Exam.

7 Referencing the American with Disabilities Act, Title III, Section 504 collectively.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date- July 23.2020

